                                                     U.S. OFFICE OF PERSONNEL MANAGEMENT
                                                           OFFICE OF THE INSPECTOR GENERAL
                                                                            OFFICE OF AUDITS



                                   Final Audit Report

  Subject:




            AUDIT OF INFORMATION SYSTEMS
         GENERAL AND APPLICATION CONTROLS AT
          HEALTH CARE SERVICE CORPORATION



                                            Report No. 1A-10-17-13-026

                                            Date:               January 28, 2014




                                                          --CAUTION--
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                                                       Audit Report



              FEDERAL EMPLOYEES HEALTH BENEFITS PROGRAM
                            CONTRACT 1039
                            HEALTH CARE SERVICE CORPORATION
                                                  PLAN CODES 10/11
                                                CHICAGO, ILLINOIS



                                            Report No. 1A-10-17-13-026

                                            Date:                January 28, 2014




                                                                                             ________________________
                                                                                             Michael R. Esser
                                                                                             Assistant Inspector General
                                                                                               for Audits




                                                          --CAUTION--
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                                   Executive Summary



          FEDERAL EMPLOYEES HEALTH BENEFITS PROGRAM
                        CONTRACT 1039
                    HEALTH CARE SERVICE CORPORATION
                                    PLAN CODES 10 /11
                                   CHICAGO, ILLINOIS



                               Report No. 1A-10-17-13-026

                               Date:           January 28, 2014


This final report discusses the results of our audit of general and application controls over the
information systems at Health Care Service Corporation (HCSC or Plan).

Our audit focused on the claims processing applications used to adjudicate Federal Employees
Health Benefits Program (FEHBP) claims for HCSC, as well as the various processes and
information technology (IT) systems used to support these applications. We documented
controls in place and opportunities for improvement in each of the areas below.

Security Management
Nothing came to our attention to indicate that HCSC does not have an adequate security
management program.

Access Controls
HCSC has implemented numerous controls to grant and remove physical access to its data
center, as well as logical controls to protect sensitive information. All weaknesses identified
during the audit were remediated.




                                                  i
Network Security
HCSC has implemented a thorough incident response and network security program. However,
we noted several opportunities for improvement related to HCSC’s network security controls.
Several specific servers containing Federal data are not subject to routine vulnerability scanning.
The results of the vulnerability scans also indicated that these servers had outdated system
patches and software. HCSC has also not implemented a process to monitor and audit the
activity of privileged users on their information systems.

Configuration Management
HCSC has developed formal policies and procedures that provide guidance to ensure that system
software is appropriately configured and updated, as well as for controlling system software
configuration changes. However, HCSC has not documented a formal baseline configuration
outlining the approved settings for its mainframe installation and therefore cannot effectively
audit its mainframe security settings. HCSC has also not developed a process to audit its server
configuration settings to ensure compliance with the approved standard images.

Contingency Planning
We reviewed HCSC’s business continuity and disaster recovery plans and concluded that they
contained the key elements suggested by relevant guidance and publications. We also
determined that these documents are reviewed, updated, and tested on a periodic basis.

Claims Adjudication
HCSC has implemented many controls in its claims adjudication process to ensure that FEHBP
claims are processed accurately. However, we noted several weaknesses in HCSC’s claims
application controls.

Health Insurance Portability and Accountability Act (HIPAA)
Nothing came to our attention that caused us to believe that HCSC is not in compliance with the
HIPAA security, privacy, and national provider identifier regulations.




                                                 ii
                                                                Contents
                                                                                                                                             Page
Executive Summary ......................................................................................................................... i
 I. Introduction .............................................................................................................................. 1
      Background .............................................................................................................................. 1
      Objectives ................................................................................................................................ 1
      Scope ........................................................................................................................................ 2
      Methodology ............................................................................................................................ 2
      Compliance with Laws and Regulations.................................................................................. 3
 II. Audit Findings and Recommendations .................................................................................... 4
       A. Security Management ....................................................................................................... 4
       B. Access Controls ................................................................................................................. 4
       C. Network Security............................................................................................................... 6
       D. Configuration Management .............................................................................................. 9
       E. Contingency Planning ..................................................................................................... 11
       F. Claims Adjudication ........................................................................................................ 12
       G. Health Insurance Portability and Accountability Act ..................................................... 16
 III. Major Contributors to This Report ....................................................................................... 17
       Appendix: HCSC’s September 10, 2013 response to the draft audit report issued
                 July 3, 2013.
                                       I. Introduction

This final report details the findings, conclusions, and recommendations resulting from the audit
of general and application controls over the information systems responsible for processing
Federal Employees Health Benefits Program (FEHBP) claims by Health Care Service
Corporation (HCSC).

The audit was conducted pursuant to FEHBP contract CS1039; 5 U.S.C. Chapter 89; and 5 Code
of Federal Regulations (CFR) Chapter 1, Part 890. The audit was performed by the U.S. Office
of Personnel Management’s (OPM) Office of the Inspector General (OIG), as established by the
Inspector General Act of 1978, as amended.

Background
The FEHBP was established by the Federal Employees Health Benefits Act (the Act), enacted on
September 28, 1959. The FEHBP was created to provide health insurance benefits for federal
employees, annuitants, and qualified dependents. The provisions of the Act are implemented by
OPM through regulations codified in Title 5, Chapter 1, Part 890 of the CFR. Health insurance
coverage is made available through contracts with various carriers that provide service benefits,
indemnity benefits, or comprehensive medical services.

This was our second audit of HCSC’s general and application controls. The first audit was
conducted in 2005 and all recommendations from that audit were closed prior to the start of the
current audit. We also reviewed HCSC’s compliance with the Health Insurance Portability and
Accountability Act (HIPAA).

All HCSC personnel that worked with the auditors were helpful and open to ideas and
suggestions. They viewed the audit as an opportunity to examine practices and to make changes
or improvements as necessary. Their positive attitude and helpfulness throughout the audit was
greatly appreciated.

Objectives
The objectives of this audit were to evaluate controls over the confidentiality, integrity, and
availability of FEHBP data processed and maintained in HCSC’s IT environment. We
accomplished these objectives by reviewing the following areas:
    Security management;
    Access controls;
    Configuration management;
    Segregation of duties;
    Contingency planning;
    Application controls specific to HCSC’s claims processing systems; and
    HIPAA compliance.



                                                  1
Scope
This perfonnance audit was conducted in accordance with generally accepted government
auditing standards issued by the Comptroller General of the United States. Accordingly, we
obta.ined an understanding ofHCSC 's intem al controls through interviews and observations, as
well as inspection of various documents, including infonnation technology and other related
organizational policies and procedures. This understanding of HCSC's intemal controls was
used in planning the audit by determining the extent of compliance testing and other auditing
procedures necessmy to verify that the intemal controls were properly designed, placed in
operation, and effective.

The scope of this audit centered on the infonnation systems used b y HCSC to process medical
insurance claims for FEHBP members, with a prima1y focus on the claims adjudication
applications . HCSC uses a system                   to process claims locally before submitting
the claims t h r o u g h - - the                            Association 's (BCBSA) claims
adj udication system. The business processes reviewed are primarily located in HCSC's Chicago,
lllinois; Abilene, Texas; Plano, Texas; and Ft. W01ih, Texas facilities.

The on-site p01iion of this audit was perf01med from April through May of2013 . We completed
additional audit work before and after the on-site visit at our office in Washington, D.C. The
findings, recommendations, and conclusions outlined in this rep01i are based on the status of
inf01mation system general and application controls in place at HCSC as of May 2013.

fu conducting our audit, we relied to vmying degrees on computer-generated data provided by
HCSC. Due to time constraints, we did not verify the reliability of the data used to complete
some of our audit steps but we detennined that it was adequate to achieve our audit objectives.
However, when our objective was to assess computer-generated data, we completed audit steps
necessa1y to obtain evidence that the data was valid and reliable.

Methodology
fu conducting this review we:
• 	 Gathered documentation and conducted interviews;
• 	 Reviewed HCSC 's business structure and environment;
• 	 Perf01med a risk assessment of HCSC's infonnation systems environment and applications,
    and prepared an audit program based on the assessment and the Govemment Accmmtability
    Office ' s (GAO) Federal fufonnation System Controls Audit Manual (FISCAM); and
• 	 Conducted vm·ious compliance tests to detennine the extent to which established contr·ols and
    procedures are functioning as intended. As appropriate, we used j udgmental sainpling in
    completing our compliance testing.

Vm·ious laws, regulations, and industry standm·ds were used as a guide to evaluating HCSC's
control stm cture. These criteria include, but m·e not limited to, the following publications:
• 	 Title 48 of the Code of Federal Regulations;
• 	 Office of Management and Budget (OMB) Circulm· A-130, Appendix III;


                                                2

   OMB Memorandum 07-16, Safeguarding Against and Responding to the Breach of
    Personally Identifiable Information;
   Information Technology Governance Institute’s CobiT: Control Objectives for Information
    and Related Technology;
   GAO’s FISCAM;
   National Institute of Standards and Technology’s Special Publication (NIST SP) 800-12,
    Introduction to Computer Security;
   NIST SP 800-14, Generally Accepted Principles and Practices for Securing Information
    Technology Systems;
   NIST SP 800-30, Risk Management Guide for Information Technology Systems;
   NIST SP 800-34, Contingency Planning Guide for Information Technology Systems;
   NIST SP 800-41, Guidelines on Firewalls and Firewall Policy;
   NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information
    Systems and Organizations;
   NIST SP 800-61, Computer Security Incident Handling Guide;
   NIST SP 800-66 Revision 1, An Introductory Resource Guide for Implementing the HIPAA
    Security Rule; and
   HIPAA Act of 1996.

Compliance with Laws and Regulations
In conducting the audit, we performed tests to determine whether HCSC’s practices were
consistent with applicable standards. While generally compliant, with respect to the items tested,
HCSC was not in complete compliance with all standards as described in the “Audit Findings
and Recommendations” section of this report.




                                                3
                     II. Audit Findings and Recommendations

A. Security Management
  The security management component of this audit involved the examination of the policies and
  procedures that are the foundation of HCSC’s overall IT security controls. We evaluated
  HCSC’s ability to develop security policies, manage risk, assign security-related responsibility,
  and monitor the effectiveness of various system-related controls.

  HCSC has implemented a series of formal policies and procedures that comprise its security
  management program. HCSC’s Chief Information Security Officer is responsible for creating,
  reviewing, editing, and disseminating IT security policies. HCSC’s Risk Assessment Service
  Team developed an impressive risk management methodology and assessment process with
  procedures to document, track, and mitigate or accept identified risks. We also reviewed
  HCSC’s human resources policies and procedures related to hiring, training, transferring, and
  terminating employees.

  Nothing came to our attention to indicate that HCSC does not have an adequate security
  management program.

B. Access Controls
  Access controls are the policies, procedures, and techniques used to prevent or detect
  unauthorized physical or logical access to sensitive resources.

  We examined the physical access controls at HCSC’s headquarters building, two satellite
  locations, and its data centers. We also examined the logical controls protecting sensitive data
  on HCSC’s network environment and claims processing applications.

  The access controls observed during this audit include, but are not limited to:
     Procedures for appropriately granting physical access to facilities and data centers;
     Procedures for revoking access to data centers for terminated employees;
     Procedures for removing network access for terminated employees; and
     Procedures for recertifying employees’ access to systems and applications.

  However, HCSC’s process to remove employees’ physical access after termination could be
  improved. We compared a list of employees with active access to HCSC facilities to a list of
  employees that were terminated in the last year. We discovered over 30 terminated employees
  that retained access to various facilities. None of the employees that retained access following
  termination had access to the data center.

  HCSC does not currently have a process in place to routinely audit employees’ physical access to
  non-data center facilities. NIST SP 800-53 Revision 3 states that an organization must terminate
  access upon termination of employment. NIST SP 800-53 also states that an organization must
  review and analyze system audit records for indications of inappropriate or unusual activity.
  Failure to remove and audit physical access to terminated users increases the risk that a


                                                   4
terminated employee could enter a facility and steal, modify, or delete sensitive and proprietary
information.

At the end of the fieldwork phase of the audit, HCSC stated that it has instituted a temporary
control to detect improper removal of facility access. The control involves

                                                                                HCSC is currently
testing a new card access system that should be a better long-term solution to ensure that
physical access is appropriately removed following employee termination. The anticipated
implementation date of the new system is in calendar year 2014.

Recommendation 1
As part of the audit resolution process, we recommend that HCSC provide evidence of several
iterations of the weekly audit process.

HCSC Response:
“




OIG Reply:
The evidence provided by HCSC in response to the draft audit report indicates that the Plan has
implemented a weekly audit process; no further action is required.

Recommendation 2
We recommend that HCSC implement a methodology to ensure that physical access to facilities
is removed promptly following employee termination.

HCSC Response:
“Reference Plan response in recommendation #1 above.”




                                                5
  OIG Reply:
  The evidence provided by HCSC in response to the draft audit report indicates that the Plan has
  implemented a process to ensure that physical access to facilities is removed promptly following
  an employee termination; no further action is required.

C. Network Security
  Network security includes the policies and controls used to prevent or monitor unauthorized
  access, misuse, modification, or denial of a computer network and network-accessible resources.

  HCSC has implemented a thorough incident response and network security program. As noted
  in Section A, Security Management, HCSC has also implemented a robust risk assessment
  process. HCSC’s risk assessment procedures include a thorough vulnerability scan and
  penetration test on the target information system, followed by a remediation process for any
  weaknesses identified.

  We evaluated HCSC’s network security program and also reviewed the results of automated
  vulnerability scans performed during this audit. We noted the following opportunities for
  improvement related to HCSC’s network security controls.

  1. Full Scope Vulnerability Scanning
     We reviewed HCSC’s computer server vulnerability management program to determine if
     adequate controls were in place to detect, track, and remediate vulnerabilities.

     Although HCSC routinely performs vulnerability scans, we discovered that several servers
     containing Federal data are not subject to routine vulnerability scanning. NIST SP 800-53
     Revision 3 states that the organization should scan “for vulnerabilities in the information
     system and hosted applications….”

     Failure to perform full scope vulnerability scanning increases the risk that HCSC’s systems
     could be compromised and sensitive data stolen or destroyed.

     Recommendation 3
     We recommend that HCSC ensure that vulnerability scanning is conducted on all servers,
     specifically the servers housing Federal data that are not currently part of HCSC’s
     vulnerability management program.

     HCSC Response:
     “The Plan stated it is currently deploying the capabilities to validate security settings of
     systems to ensure their security posture is regularly validated and reported. The Security
     Validation capabilities will focus on measuring adherence to approved security baselines
     and measuring the remediation of security vulnerabilities through the application of
     patches. The validation capabilities are being rolled out by platform, with the initial
     deployment operational by                . At that time, a server list will be compiled by the



                                                  6
   HCSC configuration management system; the servers identified will be scanned at least
   annually.”

   OIG Reply:
   As part of the audit resolution process, we recommend that HCSC provide OPM’s Healthcare
   and Insurance Office (HIO) with evidence that vulnerability scanning has been implemented
   for all servers.

2. Vulnerabilities Identified in Scan Results
   System Patching
   HCSC has documented patch management policies and procedures. However, the results of
   the vulnerability scans indicate that critical patches, service packs, and hot fixes are not
   always implemented in a timely manner.

   FISCAM Critical Element CM-5 states that “Software should be scanned and updated
   frequently to guard against known vulnerabilities.” NIST SP 800-53 section SI-2 states “The
   organization (including any contractor to the organization) promptly installs security-relevant
   software updates (e.g., patches, service packs, and hot fixes). Flaws discovered during
   security assessments, continuous monitoring, incident response activities, or information
   system error handling, are also addressed expeditiously.”

   Failure to promptly install important updates increases the risk that vulnerabilities will not be
   remediated and sensitive information could be stolen.

   Recommendation 4
   We recommend that HCSC implement procedures and controls to ensure that production
   servers are installed with appropriate patches, service packs, and hotfixes on a timely basis.

   HCSC Response:
   “The Plan states                       it will develop a plan to supplement existing
   operational patching processes. The Plan will include a revised patch management policy,
   milestones for creating platform-specific standards, and a roadmap for implementing
   operational process enhancements.”

   OIG Reply:
   As part of the audit resolution process, we recommend that HCSC provide OPM’s HIO with
   evidence of the new patch management process implementation and the correlating
   vulnerability scan results that indicate that patching has occurred.

   Noncurrent software
   The results of the vulnerability scans indicated that several servers contained noncurrent
   software applications that were no longer supported by the vendors and have known security
   vulnerabilities.



                                                 7
   FISCAM states that “Procedures should ensure that only current software releases are
   installed in information systems. Noncurrent software may be vulnerable to malicious code
   such as viruses and worms.”

   Failure to promptly remove outdated software increases the risk of a successful malicious
   attack on the information system.

   Recommendation 5
   We recommend that HCSC implement a methodology to ensure that only current and
   supported versions of system software are installed on the production servers.

   HCSC Response:
   “The Plan states it is aware that some unsupported software runs on its network and
   agrees it would be preferable for all software to be at current versions. There will be
   occasions where their business and Information Technology Group (ITG) departments
   partner to make risk-aware decisions to not upgrade or replace software. Software that is
   to become unsupported is inventoried and the impacts of upgrading, replacing, or
   accepting risk are discussed with business owners. Decisions to not upgrade low risk
   software may be based on business drivers such as ‘Reliant applications are to be retired’
   or ‘the Plan will pay for extended vendor support until internal resources are available for
   the upgrade’.

   In 2011, the Plan initiated a Technology Lifecycle Management program to address
   software and hardware currency. Under this program, the Plan maintains a centralized
   repository of technologies (Enterprise Technology Catalog) containing internal technology
   owner, vendor, HCSC lifecycle dates, next in line products (for products going out of
   support) and other metadata that describes the uses within HCSC. Regular audits of our
   applications are conducted to ensure support teams consider software currency. We expect
   the amount of unsupported software to decrease as the program matures.”

   OIG Reply:
   The evidence provided by HCSC in response to the draft audit report indicates that the Plan
   has implemented a methodology to ensure that only current and supported versions of system
   software are installed on the production servers unless there is a business justification; no
   further action is required.

3. Privileged User Access Monitoring
   HCSC has configured its network devices to record the activity of privileged users (i.e.,
   system administrators). However, the event logs generated by these servers are only
   reviewed retroactively if a problem has been reported or detected.

   NIST SP 800-53 Revision 3 requires that an organization “Reviews and analyzes information
   system audit records . . . for indications of inappropriate or unusual activity, and reports
   findings to designated organizational officials.”



                                                8
     Failure to routinely review elevated user activity increases the risk that malicious activity
     could go undetected and sensitive information could be compromised.

     Recommendation 6
     We recommend that HCSC implement a process to routinely review elevated user
     (administrator) activity.

     HCSC Response:
     “The Plan states it maintains a near real-time security monitoring and analysis program.
     Security event correlation rules are in place to monitor user activity including those with
     elevated privileges. When correlation rules are triggered for all types of users, including
     those with elevated privileges, they are investigated and documented
                                     . These completed investigations, including case closure
     notes, are then presented to senior leadership on a quarterly and annual basis. Senior
     leadership reviews the documentation and provides feedback as appropriate.”

     OIG Reply:
     Our understanding of the controls described in HCSC’s response is that they only apply to
     monitoring initial user login activity. The intent of this recommendation is for HCSC to
     implement a process to routinely review the activity of users with specialized access, not just
     to review the log-on activity associated with specialized users. During our audit, we
     observed the SEM tool and determined that the level of review that results from the
     correlation rules is not sufficient. Managers should be reviewing all activity performed by
     specialized users to ensure the elevated privileges are not being abused.

D. Configuration Management
  System Software
  The HCSC claims processing application,                                                  . The
  platform includes many supporting applications and system interfaces. We evaluated HCSC’s
  management of the configuration of           and determined that the following controls were in
  place:
   Documented corporate configuration policies and procedures;
   Approved server configuration images; and
   Thorough change management procedures for system software.

  The sections below document areas for improvement related to HCSC’s configuration
  management controls.

  1. Baseline Configuration Policy
     HCSC has created corporate configuration policies to establish configuration management
     responsibilities within IT functional areas and to ensure security requirements are met.
     However, HCSC has not documented a formal baseline configuration outlining the approved
     settings for its mainframe installation.


                                                   9
   NIST SP 800-53 Revision 3 states that an organization must develop, document, and
   maintain a current baseline configuration of the information system.

   Failure to establish approved system configuration settings increases the risk the system may
   not meet performance requirements defined by the organization.

   Recommendation 7
   We recommend that HCSC document approved mainframe security configurations.

   HCSC Response:
   “The Plan states it currently configures its mainframe systems to adhere to a common,
   consistent set of security settings. These security configuration settings are applied to the
   mainframe baselines. The Plan will formally document the existing security configuration
   standard for mainframe systems by September 30, 2013.”

   OIG Reply:
   As part of the audit resolution process, we recommend that HCSC provide OPM’s HIO with
   evidence the security configuration standard for mainframe systems are formally
   documented.

2. Configuration Compliance Auditing
   As noted above, HCSC does not maintain approved mainframe security configurations, and
   therefore cannot effectively audit its mainframe security settings (i.e., there are no approved
   settings to which to compare the actual settings.)

   Although HCSC does have approved configuration images for its network servers, it does not
   routinely audit its servers for compliance with the approved configuration settings.

   NIST SP 800-53 Revision 3 also states that an organization must monitor and control
   changes to the configuration settings in accordance with organizational policies and
   procedures. FISCAM requires current configuration information to be routinely monitored
   for accuracy. Monitoring should address the baseline and operational configuration of the
   hardware, software, and firmware that comprise the information system.

   Failure to implement a thorough configuration compliance auditing program increases the
   risk that insecurely configured servers remain undetected, creating a potential gateway for
   malicious virus and hacking activity that could lead to data breaches.

   Recommendation 8
   We recommend that HCSC routinely audit mainframe security configurations settings to
   ensure they are in compliance with the approved baseline.




                                                10
      HCSC Response:
      “The Plan is currently deploying the capabilities to validate security settings of systems to
      ensure their security posture is regularly validated and reported. The Security Validation
      capabilities will focus on measuring adherence to approved security baselines and
      measuring the remediation of security vulnerabilities through the application of patches.
      Planned steps and timeline include:

         Finalize mainframe security configuration standard (in process);
      
                     and
         Build and execute configuration review process for mainframe.

      The validation capabilities are being rolled                 . A plan for the mainframe
      checks will be in place by                 .”

      OIG Reply:
      As part of the audit resolution process, we recommend that HCSC provide OPM’s HIO with
      evidence that the mainframe security configuration settings are being routinely audited to
      comply with the baseline created as a result of Recommendation 7.

      Recommendation 9
      We recommend that HCSC routinely audit network server security configuration settings to
      ensure they are in compliance with the approved configuration images.

      HCSC Response:
      “The Plan states it is currently deploying the capabilities to validate security settings of
      systems to ensure their security posture is regularly validated and reported. The Security
      Validation capabilities will focus on measuring adherence to approved security baselines
      and measuring the remediation of security vulnerabilities through the application of
      patches. The validation capabilities are being rolled out               . Network server
      setting configurations are scheduled to be in place by

      OIG Reply:
      As part of the audit resolution process, we recommend that HCSC provide OPM’s HIO with
      evidence that the network server security configuration settings are being routinely audited to
      comply with the approved configuration images.

E. Contingency Planning
  We reviewed the following elements of HCSC’s contingency planning program to determine
  whether controls were in place to prevent or minimize interruptions to business operations when
  disastrous events occur:
     Disaster response plan;
     Business continuity plan for data center operations;


                                                  11
     Business continuity plans for claims processing operations and claims support;
     Disaster recovery plan tests conducted in conjunction with the alternate data center; and
     Emergency response procedures and training.

  We determined that the service continuity documentation contained the critical elements
  suggested by NIST SP 800-34, “Contingency Planning Guide for IT Systems.” HCSC has
  identified and prioritized the systems and resources that are critical to business operations, and
  has developed detailed procedures to recover those systems and resources.

  Nothing came to our attention to indicate that HCSC has not implemented adequate controls
  related to contingency planning.

F. Claims Adjudication
  The following sections detail our review of the applications and business processes supporting
  HCSC’s claims adjudication process.

  1. Application Configuration Management
      We evaluated the policies and procedures governing application development and change
      control of HCSC’s claims processing systems.

      HCSC has implemented policies and procedures related to application configuration
      management, and has also adopted a system development life cycle methodology that IT
      personnel follow during routine software modifications. We observed the following controls
      related to testing and approvals of software modifications:
         HCSC has adopted practices that allow modifications to be tracked throughout the change
          process;
         Code, unit, system, and quality testing are all conducted in accordance with industry
          standards; and
         HCSC uses a business unit independent from the software developers to move the code
          between development and production environments to ensure adequate segregation of
          duties.

      Nothing came to our attention to indicate that HCSC has not implemented adequate controls
      related to the application configuration management process.

  2. Claims Processing System
      We evaluated the input, processing, and output controls associated with HCSC’s claims
      processing systems. We determined that HCSC has implemented policies and procedures to
      help ensure that:
         Paper claims that are received in the mail room are tracked to ensure timely processing;
         Claims are monitored as they are processed through the systems with real time tracking
          of the system’s performance; and
         Claims scheduled for payment are actually paid.



                                                   12
  Nothing came to our attention to indicate that HCSC has not implemented adequate controls
  over the claims processing system.

3. Debarment
  HCSC has adequate procedures for updating the                  system with debarred provider
  information, but it does not routinely audit the debarment database for accuracy.

  HCSC receives the OPM OIG debarment list every month and compares the monthly
  changes to the               debarred provider file. Any new debarred providers are added in
  order to flag claims submitted by that provider to notify the member of the provider’s status
  and initiate the 15 day grace period in which the member has to find a new provider before
  further service will be denied by the system.

  However, this process is done manually, and HCSC does not have an auditing process in
  place to ensure that all modifications are accurate and complete.

  Failure to audit the accuracy of the debarment file increases the risk that claims are being
  paid to providers that are debarred.

  Recommendation 10
  We recommend that HCSC implement a process to routinely audit the provider file to ensure
  that all debarment related modifications are complete and accurate.

  HCSC Response:
  “The Plan currently has technicians in the Service Delivery Operations (SDO) department
  pull Debarred Provider reports. The Debarred Provider reports are sent to responsible
  resources in the Federal Employee Program (FEP) Operations, Corporate Compliance,
  Government Programs Marketing, and Government Contracts Processing departments for
  review. Once each area performs their review of the report, a notification e-mail is sent to
  the responsible SDO Technicians and FEP Operations Management.

  On a quarterly basis, FEP Operations Management will pull a sample from the original
  reports to confirm the accuracy and timeliness of the updates. Partial quarterly reviews
  were performed in April 2013 and June 2013. The first full quarter review will be
  performed in 4th Quarter 2013.”

  OIG Reply:
  As part of the audit resolution process, we recommend that HCSC provide OPM’s HIO with
  evidence of the full review process at the end of the 4th quarter, 2013, as well as evidence of
  several subsequent full quarterly reviews.




                                               13
4. Application Controls Testing
   We conducted a test on HCSC’s claims adjudication application,             to validate the
   system’s processing controls. The exercise involved processing test claims designed with
   inherent flaws and evaluating the manner in which HCSC’s systems adjudicated the claims.

   Our test results indicate that controls and system edits are in place to identify the following
   scenarios:
      Invalid members and providers;
      Member eligibility;
      Gender inconsistence;
      Overlapping facility claims;
      Timely filing; and
      Catastrophic maximum.

   The sections below document opportunities for improvement related to HCSC’s claims
   application controls.

   a. Place of Service/Procedure Inconsistency
       Test claims were processed where the place of service (POS) was not valid for the
       procedure performed.

       We entered test claims into                               with a

       Despite this inconsistency, neither                                deferred or suspended
       these claims.

       These system weaknesses increase the risk that benefits are being paid for procedures that
       were not actually performed.

       At the conclusion of the fieldwork phase of our audit, BCBSA provided evidence that an
       edit exists regarding types of bill and procedure codes that are not compatible to place of
       service codes.
                                                                                    The intent of
       our claims testing is to identify areas for improvement within the claims processing
       system that can be generalized and extrapolated. The overall risk that claims are being
       paid for services with invalid place of service codes is still present.

       This risk was acknowledged by the BCBSA, and we were informed that they “will be
       initiating a project at the Operations Center to review the validity of the acceptable
       services on this Table.”

       Recommendation 11
       We recommend that the BCBSA conduct a full review of place of service codes to
       appropriately tailor the edit to ensure claims are not being inappropriately processed.


                                                14
   HCSC Response:
   “FEP currently has an edit in                that would defer claims if the criteria for
   place of service (POS) is not appropriate for the procedure performed. The OIG Audit



                Based upon the exception noted, the FEP Operations Center and the
   FEPDO will conduct a review of the procedures and POS to ensure that this edit is
   functioning as designed and that the Place of Services are correctly identified on the
   allowable claims table. At this time, we do not have an expected completion date for
   this project.”

   OIG Reply:
   As part of the audit resolution process, we recommend that the BCBSA provide OPM’s
   HIO with evidence to ensure that a full review of place of service codes was conducted
   and that system modifications have been made to ensure claims are not being
   inappropriately processed.

b. Non-Par Pricing
   A non-participating (non-par) provider was paid an amount significantly greater than the
   amount allowed by the Medicare fee schedule.

   Non-par professional claims are priced by                   We submitted a test claim
   directly into               for a Medicare subscriber visiting a non-par provider. This
   claim contained a procedure code for an office visit, a diagnosis code for
   and submitted charges of $6,000. Although the Medicare fee schedule allows $38.50 for
   an office visit, the system paid the provider the full $6,000 of submitted charges.

   According to the BlueCross BlueShield benefit brochure, the non-participating provider
   allowance (NPA) is calculated as the greater of the Medicare fee schedule or the Plan’s
   usual, customary, and reasonable pricing allowance (PPA). In this test case, the
   processor entered a PPA equal to the submitted charges of $6,000.

   During a prior audit in 2008, we discovered this exact problem in the
   system. In response to our recommendation to modify the system, we were told that the
   BCBSA was “conducting a study to determine the specifications required to implement
   an edit that would defer any non-par priced claim that exceeds 40% of the Medicare Fee
   Schedule. The results of the study are expected during the fourth quarter 2008 with
   implementation of the recommendation in 2009.” We submitted these claims as a follow-
   up test of the functionality of the controls purported to be in place by 2009. We expected
   the system to suspend the claim after detecting the large variance between the PPA and
   the Medicare fee schedule.




                                           15
         This system weakness increases the risk that non-par providers are being significantly
         overpaid when they inadvertently or fraudulently submit charges well in excess of the
         Medicare fee schedule amount.

         Recommendation 12
         We recommend that BCBSA implement the appropriate system modifications to ensure
         that non-par provider claims are suspended for review when there is a large variance
         between the NPA and the Medicare fee schedule.

         HCSC Response:
         “In order to comply with the above OIG recommendation, a request has been
         submitted to our system-intake committee to conduct an analysis of the required
         changes needed to be implemented into                 The completion of this analysis
         is not expected until the                due to the year-end benefit changes.”

         OIG Reply:
         As part of the audit resolution process, we recommend that the BCBSA provide OPM’s
         HIO with evidence that system modifications have been made to ensure that non-par
         provider claims are suspended for review when there is a large variance between the NPA
         and the Medicare fee schedule.

G. Health Insurance Portability and Accountability Act
  The OIG reviewed HCSC’s efforts to maintain compliance with the security and privacy
  standards of HIPAA.

  HCSC has implemented a series of IT security policies and procedures to adequately address the
  requirements of the HIPAA security rule. HCSC has also developed a series of privacy policies
  and procedures that directly addresses all requirements of the HIPAA privacy rule. HCSC
  reviews its HIPAA privacy and security policies annually and updates when necessary. HCSC
  has designated a Privacy Official who has the responsibility of ensuring compliance with HIPAA
  Privacy and Security policies. Each year, all employees must complete HCSC’s computer based
  training course. This training encompasses HIPAA privacy and security regulations as well as
  general IT compliance.

  Nothing came to our attention that caused us to believe that HCSC is not in compliance with the
  various requirements of HIPAA regulations.




                                                 16
                    III. Major Contributors to This Report

This audit report was prepared by the U.S. Office of Personnel Management, Office of Inspector
General, Information Systems Audits Group. The following individuals participated in the audit
and the preparation of this report:
                   Deputy Assistant Inspector General for Audits
                      Chief, Information Systems Audit Group
               , Lead IT Auditor-In-Charge
                        , IT Auditor
                   , IT Auditor
                           , IT Auditor




                                              17
                                    Appendix



September 10, 2013
                                                                 Federal Employee Program
                Senior Team Lead                                 1310 G Street, N.W.
Information Systems Audits Group                                 Washington, D.C. 20005
                                                                 202.942.1000
Insurance Service Programs                                       Fax 202.942.1125
Office of Personnel Management
1900 E Street, N.W., Room 6400
Washington, D.C. 20415

Reference: OPM DRAFT EDP AUDIT REPORT
           HCSC BlueCross BlueShield Plans
           Audit Report Number 1A-10-17-13-026
           Report Dated July 3, 2013 and Received July 3, 2013

Dear

This report is in response to the above-referenced U.S. Office of Personnel
Management (OPM) Draft Audit Report covering the Federal Employees Health
Benefits Program (FEHBP) Audit of Information Systems General and Application
Controls for the Plan’s interface with the FEP claims processing system, access, and
security controls. Our comments regarding the recommendations in this report are as
follows:

A. Security Management
No recommendations made in this area.

B. Access Controls

1. Privileged User Monitoring
Recommendation 1

The OIG Auditors recommend that HCSC provide evidence of several iterations of the
weekly audit process.

Response to Recommendation 1
Recommendation 2

The OIG Auditors recommend that HCSC implement a methodology to ensure that
physical access to facilities is removed promptly following employee termination.

Response to Recommendation 2

Reference Plan response in recommendation #1 above.

C. Network Security

1. Full Scope Vulnerability Scanning

Recommendation 3


The OIG Auditors recommend that HCSC ensure that vulnerability scanning is
conducted on all servers, specifically the servers housing Federal data that are not
currently part of HCSC’s vulnerability management program.

Response to Recommendation 3

The Plan stated it is currently deploying the capabilities to validate security settings of
systems to ensure their security posture is regularly validated and reported. The
Security Validation capabilities will focus on measuring adherence to approved
security baselines and measuring the remediation of security vulnerabilities through
the application of patches. The validation capabilities are being rolled out by platform,
with the initial deployment operational by               . At that time, a server list will be
compiled by the HCSC configuration management system; the servers identified will
be scanned at least annually.



                                              2
2. Vulnerabilities Identified in Scan Results

Recommendation 4

The OIG Auditors recommend that HCSC implement proper procedures and controls
to ensure that production servers are installed with appropriate patches, service
packs, and hot-fixes on a timely basis.

Response to Recommendation 4

The Plan states by                     , it will develop a plan to supplement existing
operational patching processes. The Plan will include a revised patch management
policy, milestones for creating platform-specific standards, and a roadmap for
implementing operational process enhancements.

Recommendation 5

The OIG Auditors recommend that HCSC implement a methodology to ensure that
only current and supported versions of system software are installed on the production
servers.

Response to Recommendation 5

The Plan states it is aware that some unsupported software runs on its network and
agrees it would be preferable for all software to be at current versions. There will be
occasions where their business and Information Technology Group (ITG) departments
partner to make risk-aware decisions to not upgrade or replace software. Software
that is to become unsupported is inventoried and the impacts of upgrading, replacing,
or accepting risk are discussed with business owners. Decisions to not upgrade low
risk software may be based on business drivers such as “Reliant applications are to
be retired “or “ the Plan will pay for extended vendor support until internal resources
are available for the upgrade”.

In 2011, the Plan initiated a Technology Lifecycle Management program to address
software and hardware currency. Under this program, the Plan maintains a
centralized repository of technologies (Enterprise Technology Catalog) containing
internal technology owner, vendor, HCSC lifecycle dates, next in line products (for
products going out of support) and other metadata that describes the uses within
HCSC. Regular audits of our applications are conducted to ensure support teams
consider software currency. We expect the amount of unsupported software to
decrease as the program matures.




                                            3
3. Privileged User Access Monitoring

Recommendation 6

The OIG Auditors recommend that HCSC implement a process to routinely review
elevated user (administrator) activity.

Response to Recommendation 6
The Plan states it maintains a near real-time security monitoring and analysis
program. Security event correlation rules are in place to monitor user activity including
those with elevated privileges. When correlation rules are triggered for all types of
users, including those with elevated privileges, they are investigated and documented
within our                                          . These completed investigations,
including case closure notes, are then presented to senior leadership on a quarterly
and annual basis. Senior leadership reviews the documentation and provides
feedback as appropriate.

D. Configuration Management

1. Baseline Configuration Policy

Recommendation 7

The OIG Auditors recommend that HCSC document approved mainframe security
configurations.

Response to Recommendation 7

The Plan states it currently configures its mainframe systems to adhere to a common,
consistent set of security settings. These security configuration settings are applied to
the mainframe baselines. The Plan will formally document the existing security
configuration standard for mainframe systems by                         . See
Attachment 4.

1. Configuration Compliance Auditing

Recommendation 8

The OIG Auditors recommend that HCSC routinely audit mainframe security
configurations settings to ensure they are in compliance with the approved baseline.

Response to Recommendation 8

The Plan is currently deploying the capabilities to validate security settings of systems
to ensure their security posture is regularly validated and reported. The Security
Validation capabilities will focus on measuring adherence to approved security


                                            4
baselines and measuring the remediation of security vulnerabilities through the
application of patches. Planned steps and timeline include:

      Finalize mainframe security configuration standard (in process);
   
                              ; and
      Build and execute configuration review process for mainframe.

The validation capabilities are being rolled out               A plan for the mainframe
checks will be in place by                  .

Recommendation 9

The OIG Auditors recommend that HCSC routinely audit network server security
configurations settings to ensure they are in compliance with the approved
configuration images.

Response to Recommendation 9

The Plan states it is currently deploying the capabilities to validate security settings of
systems to ensure their security posture is regularly validated and reported. The
Security Validation capabilities will focus on measuring adherence to approved
security baselines and measuring the remediation of security vulnerabilities through
the application of patches. The validation capabilities are being rolled out               .
Network server setting configurations are scheduled to be in place by
                 .

1. Contingency Planning

No recommendations made in this area.

1. Claims Adjudication

1. Debarment

Recommendation 10

The OIG Auditors recommend that HCSC implement a process to routinely audit the
provider file to ensure that all debarment related modifications are complete and
accurate.

Response to Recommendation 10
The Plans currently has technicians in the Service Delivery Operations (SDO)
department pull Debarred Provider reports. The Debarred Provider reports are sent to
responsible resources in the Federal Employee Program (FEP) Operations, Corporate
Compliance, Government Programs Marketing, and Government Contracts
Processing departments for review. Once each area performs their review of the

                                             5
report, a notification e-mail is sent to the responsible SDO Technicians and FEP
Operations Management.

On a quarterly basis, FEP Operations Management will pull a sample from the original
reports to confirm the accuracy and timeliness of the updates. Partial quarterly
reviews were performed in April 2013 and June 2013. The first full quarter review will
be performed in 4th Quarter 2013. See Attachments 5a – 5d for April 2013 Validations
and June 2013 Validations.

2. Place of Service/Procedure Inconsistency

Recommendation 11

The OIG Auditors recommend that BCBSA conduct a full review of place of service
codes to appropriately tailor the edit to ensure claims are not being inappropriately
processed.

Response to Recommendation 11

FEP currently has an edit in              that would defer claims if the criteria for
place of service (POS) is not appropriate for the procedure performed. The OIG Audit
submitted a claim


              Based upon the exception noted, the FEP Operations Center and the
FEPDO will conduct a review of the procedures and POS to ensure that this edit is
functioning as designed and that the Place of Services are correctly identified on the
allowable claims table. At this time, we do not have an expected completion date for
this project.

3. Non-Par Pricing

Recommendation 12

The OIG Auditors recommend that BCBSA implement the appropriate system
modifications to ensure that non-par provider claims are suspended for review when
there is a large variance between the Non Par Allowance (NPA) and the Medicare fee
schedule.

Response to Recommendation 12

In order to comply with the above OIG recommendation, a request has been
submitted to our system-intake committee to conduct an analysis of the required
changes needed to be implemented into                  The completion of this analysis
is not expected until the                due to the year-end benefit changes.




                                           6
G.    Health Insurance Portability and Accountability Act

No recommendations made in this area.

We appreciate the opportunity to provide our response to this Draft Audit Report and
request that our comments be included in their entirety as an amendment to the Final
Audit Report.

Sincerely,



           , Managing Director
Program Assurance

Attachments

cc:             , OPM
                   , OPM
                  HCSC
                       , HCSC
                      , FEPDO
                     , FEPDO




                                          7
